NO.
IN THE SUPREME COURT OF THE UNITED STATES

FREDIE PHILLIP KORYAL,
Petitioner,
y.

SARAH SCHROEDER,
Respondent.

PROOF OF SERVICE
I, FREDIE PHILLIP KORYAL, the undersigned Petitioner in the above-entitled case, do hereby
declare that on this IH day of July 2021, I have served copies of the above Motion to Proceed In
Forma Pauperis, corrected Affidavit or Declaration in Support of Motion, corrected Petition for Writ of
Certiorari and this Proof of Service upon the following parties:
Dana M. Nessel
Michigan Attorney General
Appellate Division
525 West Ottawa, 4th Floor
P.O. Box 30217
Lansing, Michigan 48909

and

Office of the Clerk
Supreme Court of the United States
Washington, D.C. 20543

by placing the same in sealed envelopes, properly addressed, and handing them to prison officials at the
Alger Correctional Facility to be placed in the prison’s outgoing mail via the Michigan Department of
Corrections’ mandated legal mailing system, with first-class postage fully prepaid and affixed.
I declare under penalty of perjury that the foregoing is true and correct.

Executed On:
JASONJ.HUBBUr'-'x /\
NOTARY PUBLIC, SWE 0FV\ \
COUNTY OF SCHOOCSSAEJ \J
MY COMMISSION EXPIRES Aug 26 2023
ACTING IN COUNTY OF A). J

s/F^edi^Phillip Koryal, Prison No. 390355
Petitioner-Appellant, Pro Se
Alger Correctional Facility
N6141 Industrial Park Drive
Munising, Michigan 49862
(906) 387-5000

